               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00231-158


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

  Aleda E. Lutz VA Medical Center 

         Saginaw, Michigan 





May 22, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov


         (Hotline Information: www.va.gov/oig/hotline)


                              CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI



                                            Glossary 

                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                     CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................              i



Objectives, Scope, and Methodology.......................................................................                         1


  Objectives ...............................................................................................................      1


  Scope......................................................................................................................     1


  Methodology ...........................................................................................................         1



Results and Recommendations ................................................................................                      3


  EOC ........................................................................................................................    3


  AUD ........................................................................................................................    6


  MM..........................................................................................................................    7


  DWHP Proficiency ..................................................................................................             8



Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           9


  B. PACT Compass Metrics ....................................................................................                   11


  C. VISN Director Comments ..................................................................................                   15


  D. Facility Director Comments ...............................................................................                  16


  E. OIG Contact and Staff Acknowledgments .........................................................                             19


  F. Report Distribution .............................................................................................           20


  G. Endnotes ...........................................................................................................        21






VA OIG Office of Healthcare Inspections
                             CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of March 24, 2014, at the following
CBOCs which are under the oversight of the Aleda E. Lutz VA Medical Center and
Veterans Integrated Service Network 11:

		 Alpena   CBOC, Alpena, MI

		 Bad   Axe CBOC, Bad Axe, MI

Review Results: We conducted four focused reviews and had no findings for the
Medication Management and Designated Women’s Health Providers’ Proficiency
reviews. However, we made recommendations in the following two review areas:

Environment of Care. Ensure that:

		 The
      handicapped accessible restroom is compliant with the Americans with Disability
  Act and accessible during regular clinic hours at the Alpena CBOC.

		 A
    hazardous materials inventory review occurs twice within a 12-month period at the
  Alpena and Bad Axe CBOCs.

		 Gowned women veterans at the Bad Axe CBOC can access a gender-specific
  restroom without entering a public area.

		 The
      parent facility includes staff at the Alpena and Bad Axe CBOCs in required
  education, training, planning, and participation in annual disaster exercises.

Alcohol Use Disorder. Ensure that CBOC/PCC:

		 Staff
       consistently document the offer of further treatment to patients diagnosed with
  alcohol dependence.




VA OIG Office of Healthcare Inspections                                                        i
                             CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–18, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections






VA OIG Office of Healthcare Inspections                                                        ii
                                  CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

		   Determine whether the CBOCs are compliant with EOC requirements.

		   Determine whether CBOCs/PCCs are compliant with VHA requirements in the care
      of patients with AUD.

		   Determine compliance with requirements for the clinical oversight and patient
      education of fluoroquinolones for outpatients.

		   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

		   EOC

		   AUD

		   MM

		   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                             1
                                 CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                           Study Population
            AUD                All CBOC and PCC patients screened within the study period of
                               July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers assigned
                               to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of the
                               three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012, and who
                               remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                      CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the Bad Axe and
Alpena CBOCs. The table below shows the areas reviewed for this topic. The areas marked as
NM did not meet applicable requirements and needed improvement.
Table 2. EOC

 NM                   Areas Reviewed                                          Findings
        The CBOC’s location is clearly identifiable
        from the street as a VA CBOC.
        The CBOC has interior signage available that
        clearly identifies the route to and location of
        the clinic entrance.
  X     The CBOC is Americans with Disabilities Act       The    handicapped      sink    faucet    at   the
        accessible.                                       Alpena CBOC was difficult to operate without
                                                          tight grasping, pinching, or twisting of the wrist.
                                                          The handicapped bathroom at the Alpena
                                                          CBOC is accessible only from 0800 to 1130.
        The furnishings are clean and in good repair.
        The CBOC is clean.
  X     The CBOC maintains a written, current             The inventory of hazardous materials at the
        inventory of hazardous materials and waste        Alpena and Bad Axe CBOCs were not reviewed
        that it uses, stores, or generates.               for accuracy twice within the prior 12 months.
        An alarm system and/or panic buttons are
        installed and tested in high-risk areas (e.g.,
        Mental Health clinic).
        Alcohol hand wash or soap dispenser and
        sink are available in the examination rooms.
        Sharps containers are secured.
        Safety needle devices are available.
        The CBOC has a separate storage room for
        storing medical (infectious) waste.
        The CBOC conducts fire drills at least every
        12 months.)
        Means of egress from the building are
        unobstructed.
        Access to fire alarm pull stations is
        unobstructed.
        Access to fire extinguishers is unobstructed.
        The CBOC has signs identifying the locations
        of fire extinguishers.
        Exit signs are visible from any direction.



VA OIG Office of Healthcare Inspections                                                                     3
                                      CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI


 NM           Areas Reviewed (continued)                                      Findings
        No expired medications were noted during
        the onsite visit.
        All medications are secured from
        unauthorized access.
        Personally identifiable information is
        protected on laboratory specimens during
        transport so that patient privacy is
        maintained.
        Adequate privacy is provided to patients in
        examination rooms.
        Documents containing patient-identifiable
        information are not laying around, visible, or
        unsecured.
        Window coverings provide privacy.
        The CBOC has a designated examination
        room for women veterans.
  X     Adequate privacy is provided to women             Gowned women veterans at the Bad Axe CBOC
        veterans in the examination room.                 cannot access gender-specific restrooms
                                                          without entering public areas.
        The Information Technology network
        room/server closet is locked.
        All computer screens are locked when not in
        use.
        Staff use privacy screens on monitors to
        prevent unauthorized viewing in high-traffic
        areas.
        EOC rounds are conducted semi-annually (at
        least twice in a 12-month period) and
        deficiencies are reported to and tracked by
        the EOC Committee until resolution.
        The CBOC has an automated external
        defibrillator.
        Safety inspections are performed on the
        CBOC medical equipment in accordance with
        The Joint Commission standards.
  X     The parent facility includes the CBOC in          The parent facility did not include the Bad Axe
        required education, training, planning, and       and Alpena CBOCs in required education,
        participation leading up to the annual disaster   training, planning, and participation leading up to
        exercise.                                         the annual disaster exercises.
        The parent facility’s Emergency Management
        Committee evaluates CBOC emergency
        preparedness activities, participation in
        annual disaster exercise, and staff
        training/education relating to emergency
        preparedness requirements.




VA OIG Office of Healthcare Inspections                                                                     4
                                      CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI


Recommendations

1. We recommended that the sink faucet control in the handicap accessible restroom at the
Alpena CBOC meets Americans with Disabilities Act Guidelines and is accessible during regular
clinic hours.

2. We recommended that processes are improved to ensure review of the hazardous materials
inventory occurs twice within a 12-month period at the Alpena and Bad Axe CBOCs.

3. We recommended processes are strengthened to ensure women veterans can access
gender-specific restrooms without entering public areas at the Bad Axe CBOC.

4. We recommended that the parent facility includes staff at the Alpena and Bad Axe CBOCs in
required education, training, planning, and participation in annual disaster exercise.




VA OIG Office of Healthcare Inspections                                                                 5
                                      CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD 

 NM                   Areas Reviewed                                       Findings
        Alcohol use screenings are completed during
        new patient encounters, and at least
        annually.
        Diagnostic assessments are completed for
        patients with a positive alcohol screen.
        Education and counseling about drinking
        levels and adverse consequences of heavy
        drinking are provided for patients with
        positive alcohol screens and drinking levels
        above National Institute on Alcohol Abuse
        and Alcoholism guidelines.
  X     Documentation reflects the offer of further     We did not find documentation of the offer of
        treatment for patients diagnosed with alcohol   further treatment for 3 of 12 patients diagnosed
        dependence.                                     with alcohol dependence.
        For patients with AUD who decline referral to
        specialty care, CBOC/PCC staff monitored
        them and their alcohol use.
        Counseling, education, and brief treatments
        for AUD are provided within 2 weeks of
        positive screening.
        CBOC/PCC RN Care Managers have
        received Motivational Interviewing training
        within 12 months of appointment to PACT.
        CBOC/PCC RN Care Managers have
        received VHA National Center for Health
        Promotion and Disease Prevention-approved
        health coaching training (most likely TEACH
        for Success) within 12 months of
        appointment to PACT.
        The facility complied with any additional
        elements required by VHA or local policy.

Recommendation

5. We recommended that CBOC/PCC staff consistently document the offer of further treatment
to patients diagnosed with alcohol dependence.




VA OIG Office of Healthcare Inspections                                                                    6
                                      CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 4. Fluoroquinolones

 NM                   Areas Reviewed                                       Findings
        Clinicians documented the medication
        reconciliation process that included the
        fluoroquinolone.
        Written information on the patient’s
        prescribed medications was provided at the
        end of the outpatient encounter.
        Medication counseling/education for the
        fluoroquinolone was documented in the
        patients’ EHRs.
        Clinicians documented the evaluation of each
        patient’s level of understanding for the
        education provided.
        The facility complied with local policy.




VA OIG Office of Healthcare Inspections                                                                 7
                                      CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

 NM                   Areas Reviewed                                       Findings
        CBOC and PCC DWHPs maintained
        proficiency requirements.
        CBOC and PCC DWHPs were designated
        with the Women’s Health indicator in the
        Primary Care Management Module.




VA OIG Office of Healthcare Inspections                                                                 8
                                                                            CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI
                                                                                                                                     Appendix A


                                                                  CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                  Uniquesd                                    Encountersd

                            Station                   CBOC
      Location      State               Localitye                  MHg         PCh       Otheri       All        MHg         PCh       Otheri        All
                               #                       Sizef
    Traverse City    MI      655GB        Rural       Large       1,690       3,815      1,434       5,080       6,498      8,113       5,809      20,420
    Clare            MI      655GE        Rural      Mid-Size      603        2,735      1,884       3,741       2,917      5,893       6,976      15,786
    Gaylord          MI      655GA        Rural      Mid-Size      749        3,176      1,234       3,687       5,223      6,533       5,263      17,019
    Cadillac         MI     655GG         Rural      Mid-Size      553        1,374      1,194       2,238       2,903      2,886       3,003      8,792
    Alpena           MI     655GD         Rural      Mid-Size      399        1,680       813        1,986       2,160      3,953       4,509      10,622
    Oscoda           MI     655GC         Rural      Mid-Size      266        1,743       479        1,811       1,782      3,838       1,080      6,700
    Cheboygan        MI     655GH         Rural       Small        446        1,156       267        1,415       1,772      2,473        589       4,834
    Bad Axe          MI      655GF        Rural       Small        502         839        323        1,225       2,060      1,943       1,911      5,914
    Grayling         MI      655GI        Rural       Small        110         445        199         524         460       1,069        373       1,902




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx


f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).


g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.




VA OIG Office of Healthcare Inspections                                                                                                                     9
                                    CBOC and PCC Reviews Aleda E. Lutz VA Medical Center, Saginaw, MI


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                                                                                Tele-Health
               CBOC           Specialty Care Servicesk          Ancillary Servicesl
                                                                                                 Servicesm
    Traverse City                   Dermatology                  Rehabilitation              Tele Primary Care
                                                               MOVE! Programn
                                                              Respiratory Therapy
                                                                   Pharmacy
                                                              Prosthetics/Orthotics
    Clare                           Dermatology                  Rehabilitation              Tele Primary Care
                                                                MOVE! Program
                                                                    Nutrition
                                                              Prosthetics/Orthotics
                                                                 Diabetes Care
    Gaylord                         Dermatology                    Pharmacy                  Tele Primary Care
                                                              Respiratory Therapy
                                                              Prosthetics/Orthotics
                                                                MOVE! Program
    Cadillac                        Dermatology                    Audiology                 Tele Primary Care
                                                                MOVE! Program
                                                              Prosthetics/Orthotics
                                                                    Nutrition
    Alpena                                ---                    Rehabilitation              Tele Primary Care
                                                                MOVE! Program
                                                                    Nutrition
                                                              Prosthetics/Orthotics
    Oscoda                            Podiatry                Prosthetics/Orthotics          Tele Primary Care
                                                                MOVE! Program
    Cheboygan                             ---                   MOVE! Program                Tele Primary Care
                                                              Prosthetics/Orthotics
    Bad Axe                               ---                    Rehabilitation                       ---
                                                                MOVE! Program
                                                                    Nutrition
    Grayling                              ---                 Prosthetics/Orthotics                   ---

 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified


CBOC.


k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           10
                                                                             CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI
                                                                                                                                      Appendix B


                                                          PACT Compass Metrics






                                                                                                                                                                 
Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code
350. Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level. Blank cells indicate the absence of reported data.
VA OIG Office of Healthcare Inspections                                                                                                                    11
                                                                              CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data.

VA OIG Office of Healthcare Inspections                                                                                                                     12
                                                                            CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                            CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                   14
                             CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI
                                                                                      Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:       April 24, 2014

          From:        Network Director, Veterans In Partnership (10N11)

       Subject:        CBOC and PCC Reviews of the Aleda E. Lutz VA Medical
                       Center, Saginaw, MI

             To:       Director, Chicago Office of Healthcare Inspections (54CH)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I concur with the findings and recommendations in the reports of the
          Community Based Outpatient Clinic and Primary Care Clinic Reviews
          at the Aleda E. Lutz VA Medical Center, Saginaw, MI.

       2. If you have any questions regarding the responses and action to the
          recommendations, please contact me at 734-222-4300.

       Thank you,




       Paul Bockelman, FACHE




VA OIG Office of Healthcare Inspections                                                       15
                             CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI
                                                                                      Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs 	                                Memorandum


           Date:       April 22, 2014

          From: 	      Director, Aleda E. Lutz VA Medical Center, Saginaw, MI
                       (655/00)

       Subject: 	      CBOC and PCC Reviews of the Aleda E. Lutz VA Medical
                       Center, Saginaw, MI

             To:       Director, Veterans In Partnership (10N11)

       I concur with the responses and action plans as detailed within the report
       for the Community Based Outpatient Clinic and Primary Care Clinic
       Reviews at the Aleda E. Lutz VA Medical Center, Saginaw, MI.

       Thank you,




       Peggy W. Kearns, MS, FACHE




VA OIG Office of Healthcare Inspections                                                       16
                             CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations


in the OIG report: 


OIG Recommendations 


Recommendation 1. We recommended that the sink faucet control in the handicap 

accessible restroom at the Alpena CBOC meets Americans with Disabilities Act 

Guidelines and is accessible during regular clinic hours. 


Concur



Target date for completion: June 15, 2014 


Facility response: Contracting Officer (COR) to contact Building Owner for price quote 

to change faucet handles in the lab bathroom (room 109). Projected completion: 

handles to be changed. 


Target date for completion: April 22, 2014 


Facility response: Handicap bathroom will be accessible during clinic hours. 


Recommendation 2. We recommended that processes are improved to ensure review 

of the hazardous materials inventory occurs twice within a 12-month period at the 

Alpena and Bad Axe CBOCs. 


Concur



Target date for completion: June 15, 2014 


Facility response: MCM 00-16, Hazardous Materials Management will be amended to 

ensure the chemical inventory at Saginaw and all CBOC’s is completed twice within a 

12 month period. 


Recommendation 3. We recommended processes are strengthened to ensure women 

veterans can access gender-specific restrooms without entering public areas at the 

Bad Axe CBOC. 


Concur



Target date for completion: May 15, 2014 


Facility response: Bad Axe CBOC has selected a bathroom that will be changed from 

unisex to a women’s only bathroom without entering public areas. 





VA OIG Office of Healthcare Inspections                                                       17
                             CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI


Recommendation 4. We recommended that the parent facility includes staff at the
Alpena and Bad Axe CBOCs in required education, training, planning, and participation
in annual disaster exercise.

Concur

Target date for completion: September 30, 2014

Facility response:
   		 Drills-Conduct Emergency Management drills at each CBOC based on their
        Hazardous Vulnerability Assessments. We are beginning these drills this month
        starting with the Clare CBOC.
    Education-Create Emergency Management Flyers, Quickbooks, CBOC service
        level Emergency Management plan review.
    Training-Drills, tracers, actual events, CBOC Service level Emergency
        Management plan review.
    Planning–Include CBOC representative (frontline staff) at all Emergency
        Management Committee meetings, be involved in updating CBOC service level
        EM plan.
   		 Participation-Annual drill, critiques, Emergency Management meeting
        attendance.

Recommendation 5. We recommended that CBOC/PCC staff consistently document
the offer of further treatment to patients diagnosed with alcohol dependence.

Concur

Target date for completion: Completed April 17, 2014

Facility response: Clinical Reminder has been modified to mandate the documentation
of the offering of further treatment to patients diagnosed with alcohol dependence.
Quality Management will monitor monthly to ensure compliance.




VA OIG Office of Healthcare Inspections                                                       18
                             CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Laura Spottiswood, RN, MPH, Team Leader
Contributor
Other                   Judy Brown, Program Support Assistant
Contributors            Debra Boyd-Seale, RN, PhD
                        Lin Clegg, PhD
                        Sheila Cooley, GNP, MSN
                        Matt Frazier, MPH
                        Wachita Haywood, RN
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       19
                             CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI

                                                                                     Appendix F
                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Veterans In Partnership (10N11)
Director, Aleda E. Lutz VA Medical Center (655/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Carl Levin, Debbie Stabenow
U.S. House of Representatives: 	Dan Benishek, Dave Camp, Danile T. Kildee,
 Candice S. Miller


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       20
                                  CBOC and PCC Reviews at Aleda E. Lutz VA Medical Center, Saginaw, MI
                                                                                           Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
		 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
		 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
      Privacy Rule, August 14, 2002.
		 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
		 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
    Violence, 2004.
		 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
		 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
		 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
		 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
		 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
    March 2011.
		 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
    Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
		 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
    Rounds, March 5, 2007.
		 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
		 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
    September 27, 2012.
		 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
		 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
		 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
   References used for the AUD review included:
		 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
    (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
    http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
    013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
		 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
		 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
3
   References used for the Medication Management review included:
		 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
		 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
		 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
		 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
		 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
   References used for the DWHP review included:
		 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
    for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
    Primary Care Provider (PCP) Proficiency, July 8, 2013.
		 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
		 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
   Reference used for PACT Compass data graphs:
		 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                     21
